The Department of Justice Office of the Inspector General (OIG) announced the release
today of an interim report as part of a review of the Department’s domestic use of
unmanned aircraft systems (UAS), commonly referred to as “drones,” as well as its
support and provision of UAS to local law enforcement agencies and non-profit
organizations. The interim report released by the OIG today presents an overview of
the Department’s UAS use and policies as of May 2013.

The OIG report found that from 2004, when the Department began acquiring UAS,
until May 2013, four DOJ law enforcement components acquired UAS for testing or
use, but only the Federal Bureau of Investigation (FBI) had used UAS to support its
mission. Although the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
reported planning to deploy UAS to support future operations, it had not yet used UAS
during an operation. The Drug Enforcement Administration (DEA) and the United
States Marshals Service (USMS) also acquired UAS for testing, but had no plans to
deploy them operationally.

From 2004 through May 2013, the FBI, ATF, DEA, and USMS together reported
spending approximately $3.7 million on acquiring UAS. All of these were classified as
“small UAS,” which are defined by the Federal Aviation Administration (FAA) as
weighing up to 55 pounds, and the FBI accounted for over 80 percent of the
purchases. DOJ officials told us that none of their UAS were armed or carried
releasable projectiles.

While both the FBI and ATF have developed standard operating procedures guiding
how to receive approval to operate UAS, officials with both components told us that
they saw no need to develop specialized UAS privacy protocols, and that they did not
believe that there was any practical difference between how UAS collect evidence
through aerial surveillance as compared to manned aircraft. Consequently, the report
found that the FBI has been applying its existing aerial surveillance policies to guide
how agents should use UAS. ATF officials told us that, as of May 2013, the ATF was
developing a standard operational checklist to guide how its agents should use UAS.

However, the OIG concluded that a consistent Department-wide policy regarding the
use of UAS may be merited in light of the current, uncoordinated approach of DOJ
components to their use and the unique capabilities of small UAS. Those capabilities
include the ability to maneuver covertly in areas where individual expectations of
privacy are not well-defined, such as in the immediate vicinity of residences, and the
potential for extended flight times far beyond the capabilities of manned aircraft. The
report noted that consistent Department guidelines specific to UAS could help ensure
both appropriate protections of individual privacy and the admissibility of evidence
acquired through the use of UAS.

In addition, the report found the Department’s Office of Justice Programs (OJP) and
Office of Community Oriented Policing Services (COPS) have awarded a total of
approximately $1.2 million to seven local law enforcement agencies and non-profit
organizations to purchase small UAS for testing or use. The award recipients were
police departments in Gadsden, Alabama, Miami-Dade County, Florida, and North
Little Rock, Arkansas; the Sheriff’s Office in San Mateo County, California, which
subsequently declined its award; and research programs at Eastern Kentucky
University, the Center for Rural Development in Hazard, Kentucky, and the Sheriffs’
Association of Texas.

With respect to the Department’s UAS grants, we found that OJP and COPS need to
enhance their efforts to monitor UAS awards to ensure that recipients can receive FAA
approval to operate UAS and that their use is legal in their jurisdictions. Further, the
Department’s law enforcement components were largely unaware of UAS acquired
through DOJ awards. The OIG believes that the granting authorities should
coordinate Department-funded UAS grant projects with the law enforcement
components to help avoid potentially overlapping investigations and ensure that the
results of UAS testing are shared appropriately.

The interim report provides eight recommendations to the Department regarding the
creation of UAS-specific policies, enhancement of the Department’s monitoring of UAS
awards, and improved coordination between award recipients and DOJ law
enforcement components. The Department agreed with all eight recommendations.

The report will be posted today under “What’s New” on the OIG’s website at
www.justice.gov/oig.
